  November 1, 2006




Financial Management
Internal Controls Over Inventory
Stored at Defense Logistics Agency
Distribution Depots
(D-2007-009)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DDC                   Defense Distribution Center
DLA                   Defense Logistics Agency
DSS                   Distribution Standard System
OMB                   Office of Management and Budget
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704


                                                                       November 1,2006
MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
SUBJECT: Report on Internal Controls Over Inventory Stored at Defense Logistics
         Agency Distribution Depots (Report No. D-2007-009)

      We are providing this report for information and use. We considered
management comments on a draft of this repot-t in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Amy J. Frontz at (303) 676-7392 or Mr. Anthony C. Hans at (614) 75 1-1400. See
Appendix D for the report distribution. The team members are listed inside the back
cover.
                               By directioii of the Deputy Inspector General for Auditing:



                                      firPaul J. Granetto, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2007-009                                                   November 1, 2006
   (Project No. D2005-D000FJ-0266.000)

             Internal Controls Over Inventory Stored at Defense
                    Logistics Agency Distribution Depots

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel involved in the DoD
physical inventory control program and DoD managers who rely on Defense Logistics
Agency inventory data should read this report. It discusses the internal controls over
inventory stored at Defense Logistics Agency distribution depots.

Background. Management and distribution of inventories are major logistics functions
performed by the Defense Logistics Agency. The Defense Distribution Center is a
Defense Logistics Agency activity that is headquarters to 26 worldwide distribution
centers that maintain stock in 327 million cubic feet of storage space and process more
than 26 million transactions annually. At the end of fiscal year 2005, the distribution
centers maintained accountability for 3.9 million stock numbers valued at $89 billion.

Results. DLA has successfully implemented several initiatives to improve controls over
inventory stored at its distribution depots. However, a review of the internal controls
identified weaknesses in several inventory-related processes. Specifically, Government
and contractor personnel did not properly perform physical inventory counts during the
execution of statistical sampling plans to measure dollar value and supply record
accuracy; the Distribution Standard System contained inaccurate inventory information
for individual storage locations; depot personnel did not complete research of inventory
discrepancies in a timely manner, retain adequate supporting documentation, or use the
proper error codes to identify underlying causes; and accountable officers did not
perform consistent or adequate quality checks of completed inventory counts.

The Director, Defense Logistics Agency should ensure that contractor and Government
personnel operating the distribution depots and performing inventories are adequately
trained and comply with existing inventory policy. Adverse actions should be taken
against supervisors who consistently fail to comply with established policy and
contractors who fail to meet required accuracy levels. The Director should also establish
a standardized methodology to appropriately penalize depots that fail to meet inventory-
related performance measures, particularly those depots that have completed the public-
private competition required by Office of Management and Budget Circular A-76. In
addition, the Director should establish a process for an independent review of the
inventory valuation statistical sampling plan results to ensure that the proper values and
spreadsheet references are used in the statistical calculations. See the Finding section of
the report for the detailed recommendations.

Management Comments. The Director of Defense Logistics Agency Logistics
Operations concurred with the finding and recommendations. The Director stated that
the Defense Distribution Center has developed a recurring training program that focuses
on the processes that impact the accountable balance including receiving, warehousing,
inventory control, and stock readiness. The Director stated that the Defense Distribution
Center Logistics Division was being reorganized to include a newly established policy
division responsible for the oversight of quality checks for distribution performance. The
Director stated that the Defense Distribution Center has taken steps to tighten control of
the quality check process and will include positive and negative incentives in future
contracts for inventory counts. The Director stated that the Defense Distribution Center
is working to enhance future contracts for depot operations to include positive and
negative incentives as well as an award fee for meeting inventory integrity performance.
The Director stated that the Defense Distribution Center will monitor the performance of
depots that completed the public-private competition required by Office of Management
and Budget Circular A-76 and that failure to meet acceptable performance levels will
impact a depot’s standing when it comes to qualifying for contract option years. The
Director stated that the Defense Logistics Agency has coordinated with the Department
of Defense Inspector General to conduct an independent review of the inventory
valuation sampling plan results on an annual basis. The Director’s comments were fully
responsive. Therefore, no additional comments are required. See the finding section of
the report for a discussion of management comments and the Management Comments
section of the report for a complete text of the comments.

Management Actions. Throughout the audit we worked closely with the inventory
integrity staff at the Defense Logistics Agency and Defense Distribution Center. We
commend them on their aggressive approach to implementing corrective actions in
response to interim results memorandums we issued in November 2005 (See
Appendix B) and March 2006 (See Appendix C).




                                            ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             3

Finding
     DLA Inventory Accuracy                                            4

Appendixes
     A.   Scope and Methodology                                       15
     B.   November 2005 Interim Results Memorandum and DLA Response   17
     C.   March 2006 Interim Results Memorandum and DLA Response      25
     D.   Report Distribution                                         36

Management Comments
     Defense Logistics Agency                                         39
Background
    Management and distribution of inventories are major logistics functions
    performed by the Defense Logistics Agency (DLA). The Defense Distribution
    Center (DDC) is headquarters to the 26 DLA worldwide distribution centers. The
    distribution centers maintain stock in 327 million cubic feet of storage space and
    process more than 26 million transactions annually. Distribution center
    inventories consist of clothing and textiles; electronics; industrial, general and
    construction supplies; subsistence; medical material; and the Military Services’
    principal end items. At the end of FY 2005, the 26 distribution centers
    maintained accountability for 3.9 million stock numbers valued at $89 billion.

    DoD Inventory Accuracy Policy. DoD 4000.25-2-M, “Military Standard
    Transaction Reporting and Accounting Procedures,” September 2001, provides
    guidance on the DoD physical inventory control program for all DoD
    Components. The purpose of the DoD physical inventory control program is to:

           •   ensure that DoD activities properly execute materiel accountability;

           •   ensure that DoD activities maintain accurate property accountability
               records for the physical inventory in support of customer requirements
               and readiness and perform physical inventories, location surveys, and
               reconciliations;

           •   identify and help resolve problems in supply system work processes
               affecting property accountability records by performing quality control
               of the work processes; and

           •   identify repetitive processing errors and maintain accurate records for
               supply system transactions by researching and reconciling property
               accountability record imbalances and potential discrepancies.

    The DoD storage activity maintains the property accountability records for all
    materiel in storage regardless of ownership and maintains transaction histories to
    support the balance records. Maintenance of these records provides the capability
    to detect theft or diversion of materiel and improves the ability to determine the
    cause of inventory variances for corrective action.

    DLA Depot Inventory Operations. Inventory integrity is a major function of
    each DLA distribution depot, and assigned personnel conduct physical
    inventories, location surveys, research of inventory adjustments, shelf life date
    inspections, and surveillance inspections. Assigned personnel execute inventory
    adjustments and maintain the accountable inventory records. The “accountable
    officer” is a command staff position to oversee the inventory program. DLA
    relies on an automated information system to manage inventory. The Distribution
    Standard System (DSS) integrates all the basic distribution center operations of
    receiving, storage, shipping, inventory, and transportation. DSS also incorporates
    space planning, production control, and performance planning and also controls
    the use of materiel handling equipment.



                                         1
Inventory Statistical Sampling Plans. DLA relies on statistical sampling
techniques to measure the accuracy of the depot inventory records. To obtain
useful and reliable information from a statistical sample, the sampling techniques
must be statistically valid and properly applied and produce results within
acceptable levels of confidence and precision. DLA uses separate statistical
sampling plans to measure inventory record accuracy and dollar value accuracy.

        DoD Record Accuracy Inventory Sample Plan. DLA executes a record
accuracy inventory sample plan during the second and fourth quarters of each
fiscal year. The results of the record accuracy sample plan are used as the
primary performance measure to assess inventory accuracy at the DLA depots.
The record accuracy sample plan is performed to meet the requirements specified
in DoD Manual 4000.25-2-M, which requires that a stratified, hierarchal
inventory sample be accomplished at least once annually for the purpose of
validating the accuracy of the accountable record. The record accuracy sample is
to be based on a 95-percent confidence level with a plus or minus error bound of
4 percent applicable to each category. Details on the stratification categories and
tolerances of the record accuracy sample plan are provided in Table 1.

                Table 1. Record Accuracy Sample Categories
                  Category - Description                      Goal    Tolerance
 A - Unit price >= $1,000                                      99%         0
 B - Unit of issue other than each or, on-hand balance >50
 and extended value < $50,000 or, annual transaction
 activity > 50                                                 95%        10%
 C - Date of last inventory > 24 months and on-hand
 balance < 50                                                  95%         5%
 D - All other material                                        95%         0


        DLA Inventory Valuation Statistical Sample Plan. DoD Regulation
7000.14-R, “DoD Financial Management Regulation,” volume 11B, December
1994, requires that physical inventory counts provide reasonable assurance that
logistics records accurately reflect the dollar value of assets stored. If inventory
size prevents a 100-percent count, the regulation requires that valid statistical
sampling techniques be used to provide assurance that the dollar value recorded in
the general ledger accounts is accurate, with at least a 90-percent confidence level
and a precision level of plus or minus 2.5 percent. DLA executes an Inventory
Valuation Statistical Sampling Plan at the end of each fiscal year to meet these
requirements. The plan includes only DLA-owned assets and uses a higher
confidence level of 95 percent.
Public-Private Competition of Depot Operations. In March 1998, DLA
announced that most of its distribution depots would undergo public-private
competition using the guidelines of Office of Management and Budget (OMB)
Circular A-76, “Performance of Commercial Activities,” August 4, 1983 (revised
2003). The process establishes Federal policy for deciding whether to retain
recurring, commercial-like activities within the Government, or contract them out


                                     2
           to a private sector source. The guidance tells how to compare performance and
           cost related information to arrive at the best overall deal for the taxpayer. To
           date, 12 distribution depots have formally completed the public-private
           competition process and the operations for 6 were awarded to private contractors
           and operations for the remaining 6 were awarded to a workforce of Federal
           Government employees.


Objectives
           Our overall audit objective was to evaluate the controls over inventory stored at
           DLA distribution depots. Specifically, we evaluated the physical inventory
           control program and related inventory sampling plans. We also reviewed the
           management control program as it relates to the audit objectives. See
           Appendix A for a discussion of the scope and methodology.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Manager’s Internal Control Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           We evaluated DLA internal controls and management’s self-evaluation of internal
           controls over inventory stored at DLA distribution depots. Specifically, we
           focused on DLA’s physical inventory control program and its FY 2005 Annual
           Statement of Assurance. We identified DLA management control weaknesses, as
           defined by DoD Instruction 5010.40. Internal controls did not ensure that
           personnel operating the distribution depots and conducting inventories complied
           with existing DLA policy on inventory accuracy. DLA did not identify or report
           the management control weaknesses identified by the audit in its FY 2005 Annual
           Statement of Assurance. The details of the management control weaknesses are
           provided in the Finding section of this report. The recommendations in this
           report, if implemented, will improve the accuracy and reliability of inventory
           stored at DLA distribution depots. A copy of the report will be provided to the
           senior official responsible for DLA management controls.


1
    Our review of the internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was cancelled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control Program Procedures,” was reissued on January 4, 2006.




                                                     3
           DLA Inventory Accuracy
           DLA has successfully implemented several initiatives to improve controls
           over inventory stored at its distribution depots. However, a review of the
           internal controls identified weaknesses in several inventory-related
           processes. Specifically,

                  •   Government and contractor personnel did not properly perform
                      physical inventory counts during the execution of statistical
                      sampling plans to measure dollar value and supply record
                      accuracy,

                  •   depot personnel did not ensure that DSS contained accurate
                      inventory information for individual storage locations,

                  •   depot personnel did not complete research of inventory
                      discrepancies in a timely manner, retain adequate supporting
                      documentation, or use the proper error codes to identify
                      underlying causes, and

                  •   accountable officers did not perform consistent or adequate
                      quality checks of completed inventory counts.

           The control weaknesses occurred because personnel responsible for
           operating the distribution depots and conducting the inventories did not
           consistently follow standard operating procedures and procedures for
           performing quality checks of inventory counts were not adequate. In
           addition, staffing problems exacerbated the control weaknesses at depots
           that had completed the public-private competition process required by
           OMB Circular A-76. The control weaknesses impact the overall integrity
           of the DLA perpetual inventory records and have contributed to inventory
           record accuracy rates that have consistently fallen short of DoD
           performance goals. DoD managers rely on the perpetual inventory records
           for accurate information on which they base purchase and other important
           inventory management decisions.


DLA Inventory Improvement Initiatives
    DDC Swarm Initiative. In March 2003, the Defense Distribution Center (DDC)
    began implementation of a “swarm initiative” for inventory accuracy
    improvement. Swarm was a concept instituted by DDC to apply increased
    resources to correct a problem quickly and comprehensively. DDC developed a
    six step process that involved: DSS enhancements to prevent errors, retraining the
    workforce, cleaning up the warehouses, correcting the records, providing tools to
    maintain inventory accuracy, and holding employees accountable. The swarm
    training included four modules to improve the processes that most directly impact
    inventory accuracy. The modules included stock readiness, inventory, receiving,
    and warehousing. The warehouse cleanup process involved re-warehousing,
    location surveys, wall-to-wall inventories, care of supplies in storage, and more


                                        4
           frequent sample inventories. The baseline for completion of the swarm initiative
           was February 2006. DDC used the results of the second quarter FY 2006 record
           accuracy sample to measure the success of the swarm initiative at the individual
           depots. The results showed that 15 of the 26 depots met all record accuracy
           goals. Overall, record accuracy rates have steadily improved during swarm.

           Independent Inventory Counters. DLA has contracted with a private sector
           firm to perform physical inventories at some of the depots included in the
           statistical sampling plans to measure dollar value and supply record accuracy.
           This contracting effort is separate from the OMB Circular A-76 contracting effort
           and allows for the performance of physical inventory counts by an outside party
           that is independent of the parties normally responsible for depot operations. The
           contractor is required to follow DLA policy and procedures when performing the
           inventories and is required to maintain a 99 percent accuracy rate.


Results of Internal Control Tests
           Tests of the internal controls identified weaknesses in several inventory-related
           processes including physical count procedures, DSS record accuracy, research of
           inventory discrepancies, and quality control checks. We performed physical
           inventory observations and related tests of controls at 17 DLA distribution depots
           (Appendix A lists sites visited). We performed the control reviews in September
           2005 at all four depots that were included in the FY 2005 DLA inventory
           valuation statistical sample plan, and the results were summarized in an interim
           results memorandum issued to DDC on November 14, 2005 (see Appendix B).
           We performed additional control reviews in February and March 2006 at 14
           depots 2 that were included in the second quarter FY 2006 record accuracy
           inventory sample plan. The results of the control reviews at all depots are
           summarized in Table 2.

                              Table 2. Summary of Internal Control Tests
                        Type of Control Test                    No. of Tests          Discrepancies
            Physical Inventory Observations                          1,634                  15
            Auditor-Observed Recounts                                  403                  13
            Floor-To-Record Tests                                    1,058                  48
            Reverse Inventories                                        238                  10
            Inventory Adjustment Voucher Review                         73                  26


           Physical Inventory Counts. Government and contractor personnel did not
           properly perform physical inventory counts during the execution of statistical
           sampling plans to measure dollar value and supply record accuracy. Observations
           of inventories is a generally accepted auditing procedure. In circumstances where
2
    The 14 depots include the Defense Depot Oklahoma City, Oklahoma, which was also visited in
    September 2005 because it was selected as part of the Inventory Valuation Statistical Sampling Plan.



                                                       5
activities use statistical sampling, auditors must be satisfied that the client’s
procedures or methods are sufficiently reliable to produce results substantially the
same as those that would be obtained by a count of all items each year. Auditors
must observe such counts as they deem necessary and must be satisfied as to the
effectiveness of the counting procedures used.

According to DLA policy, personnel conducting the inventories are required to
visit all warehouse locations for a particular stock number. At each location,
personnel are required to verify the stock number, the code identifying the
condition of the material (serviceable, unserviceable, etc), the unit of issue code
identifying how material is issued (each, by the box, etc), and physically count
each item of stock. Personnel are required to open all boxes that do not have an
original factory seal. DLA policy also requires that radio frequency devices be
used to conduct physical inventories. The radio frequency devices are used to
scan bar codes containing item information, input counts, and allow for real time
processing of inventory data.

        Auditor Observations of Physical Inventory Counts. The contractor
and Government personnel performing the physical inventories were generally
following DDC guidelines for the 1,634 inventories that were observed.
However, there were 15 instances where the DDC procedures were not followed.
For instance, personnel did not always open boxes that were not factory sealed
and remove and count the contents. In other cases, personnel did not validate
condition codes and units of issue when conducting the physical counts.

        Control reviews performed in September 2005 revealed that contractor
employees were not consistently using radio frequency devices to record
inventory count information at two of the four depots visited. We informed DDC
of this deficiency in the interim results memorandum we sent to them in
November 2005 (Appendix B) and DDC implemented corrective actions.
Subsequent control reviews performed in February and March 2006 revealed that
depot personnel consistently used radio frequency devices at 13 of the 14 depots.

         DDC personnel informed us in August 2005 that DSS was modified to
restrict access to quantities previously recorded for specific warehouse locations
so that counters could not look up the information prior to performing the
inventories. Control reviews performed in September 2005 found that contractors
performing the counts were able to access the DSS location quantity information.
DDC was informed of this deficiency in the November 2005 interim results
memorandum. Subsequent control reviews performed in February and March
2006 determined that the DSS modification was successfully implemented at most
sites to restrict access to previously recorded location quantities.

       Auditor-Observed Recounts of Recently Completed Inventories.
Auditor-observed recounts of recently completed sample inventories were
performed during control reviews in February and March 2006. A total of 403
recounts were performed and there were 13 instances where the recounted
quantity did not match the quantity recorded in DSS. Errors identified during the
recounts raise concerns about the integrity of the statistical sample results. For
example, recounts at the Defense Depot in Albany, Georgia identified 6 errors in



                                     6
57 stock numbers that had recently been inventoried as part of the second quarter
FY 2006 record accuracy sample plan.

DSS Inventory Record Accuracy. DSS contained inaccurate inventory
information for individual storage locations. Floor-to-record tests were
performed to determine if stock information for selected warehouse locations was
properly recorded in DSS. Floor-to-record control tests of 1,058 randomly
selected locations identified 48 instances where the stock information for specific
warehouse locations was not properly recorded in DSS.

For example, a control review performed at the Defense Distribution Depot
Anniston, Alabama, in February 2006 identified numerous inventory record
accuracy problems. Record accuracy control tests of 50 locations identified
21 instances where the stock information for a given location was not properly
recorded in DSS. In addition, the auditor performing the site visit coordinated
with the depot security officer to have pictures taken to document poor warehouse
conditions including a number of potential safety issues and damaged stock. We
issued an interim results memorandum to DDC on March 8, 2006, requesting
immediate management action on these issues (see Appendix C).

DDC provided an official response to the interim results memorandum, which
stated that a whistleblower complaint was filed in August 2005 reporting
improper care of material in storage. The response also describes the corrective
action plan subsequently developed, which includes re-training responsible
personnel, proper item packaging, command-level adverse actions against
negligent supervisors, improved leadership accountability, location surveys,
inventories, and condition inspections of potentially damaged material in all
warehouses. In addition, the response says that a DDC Health and Safety audit
was conducted in March 2006. We were concerned from an audit perspective
about the timeliness of the corrective actions and the fact that the safety
inspection did not occur until a month after our site visit.

The floor-to-record test was expanded at three depots to include tracing quantities
for selected locations back to DSS. For 238 locations tested, the quantities
physically counted at 10 locations differed from the quantities recorded in DSS.

Research of Inventory Discrepancies. Depot personnel did not complete
research of inventory discrepancies in a timely manner, retain adequate
supporting documentation, or use the proper error codes to identify underlying
causes. DoD policy states that the analysis of inventory adjustments is vital in
order to: identify failures in the control systems; reduce similar discrepancies in
the future; ensure proper adjustments were made; evaluate indicators of trends or
system problems; and detect negligence, abuse, or theft of materiel. Adjustment
research must be completed within 45 days in order to increase the probability of
conclusive findings. Error conditions are required to be categorized by the
warehouse operation in which they occurred (e.g., receiving) and classified by
type of error within that operation by an assigned error classification code.

Inventory adjustment vouchers are generated for adjustments meeting the criteria
established in DoD 4000.25-2-M and are used to initiate the causative research
process. Populations of inventory adjustment vouchers were obtained from DDC


                                     7
    and analyzed to determine if depots completed the research within the required
    45-day timeframe. On October 18, 2005, open adjustment vouchers totaled 2,516
    and 727 of those were more than 45 days old. On January 23, 2006, open
    adjustment vouchers totaled 5,800 and 2,795 were more than 45 days old.

    We analyzed a sample of 73 completed inventory adjustment vouchers as part of
    our control reviews in February and March 2006. Inventory adjustment vouchers
    were reviewed to determine whether the cause of the adjustment was properly
    identified and classified by the appropriate error classification code in accordance
    with DoD policy. We analyzed all documentation supporting the research and the
    assigned error classification code. Of the 73 vouchers reviewed, 26 contained
    error classification codes that were either incorrect or not adequately supported.

    For example, deficiencies were identified with all five completed inventory
    adjustment vouchers that were reviewed at the Defense Depot Albany, Georgia.
    For two of the vouchers, depot personnel did not assign the proper classification
    code to identify the operation where the error occurred. For the remaining three
    vouchers, depot personnel did not perform adequate research to support the
    assigned error classification code.

    Quality Control Over Inventory Counts Accountable officers did not perform
    consistent or adequate quality checks of completed inventory counts. DDC issued
    quality control guidance to all depot commanders and accountable officers on
    July 25, 2005. The DDC guidance provided detailed instructions on the point of
    sampling (population), determining sample sizes, random sampling methodology,
    a 99-percent acceptable quality rate, and reporting of results. The quantities at
    each location were required to be physically verified by the accountable officer or
    designee to ensure that the original physical count was accurate.

    Control reviews performed in September 2005 revealed that accountable officers
    did not consistently follow existing DDC quality control guidance at three of the
    four depots visited. We reported this problem to DDC in the interim results
    memorandum we sent to them on November 14, 2005 (see Appendix B). DDC
    issued revised quality control guidance on January 20, 2006. Subsequent control
    reviews performed in February and March 2006 found that the quality check
    process had significantly improved. Accountable officers at 13 of the 15 depots
    we visited were substantially complying with the revised policy. The results of
    the improved quality control checks were effective in showing that physical
    inventory counts required improvement at both contractor-and
    Government-operated depots. For seven depots involved in the second quarter
    FY 2006 record accuracy sample plan, the results of the quality checks were
    below the 99-percent acceptable quality rate established by DDC.


Existing Inventory Control Procedures
    The control weaknesses occurred because personnel operating the distribution
    depots did not consistently follow existing procedures and some of the procedures
    were inadequate.



                                         8
    Compliance with Existing Procedures. DDC established an extensive training
    program on inventory control. As part of the swarm effort, a detailed inventory
    control module was developed and training was provided to more than 700 depot
    employees, including contractors. In addition, DDC provided training on the
    physical inventory process to the depot accountable officers in January 2005.
    DDC also provided training on the physical inventory process to the site
    managers of the contractor hired by DLA to perform physical inventories at
    depots included in inventory sampling plans. Despite DDC’s efforts, personnel
    operating the distribution depots and performing physical inventories did not
    always comply with the procedures they were trained to follow.

    Adequacy of Existing Procedures. DLA issued extensive guidance that more
    than adequately explained the DLA requirements for performing physical
    inventories and determining the cause of supply discrepancies. Specifically, DLA
    developed separate chapters in its DSS Users Manual and separate sections in its
    Swarm Inventory Control Training Module with detailed instructions on
    performing physical inventories and conducting causative research. DDC also
    issued additional guidance on conducting physical inventories prior to the
    execution of the second quarter FY 2006 record accuracy inventory sample.

    DDC also issued quality control guidance to all depot commanders and
    accountable officers on July 25, 2005. Our review of the guidance and
    discussions with personnel responsible for its execution disclosed areas that
    required improvement. This information was provided to DDC in the interim
    results memorandum issued on November 14, 2005. DDC agreed that the quality
    check guidance was not consistently implemented and required clarification.
    DDC issued revised guidance on the quality check process on January 20, 2006,
    which addressed the deficiencies identified by our review.


OMB Circular A-76 Results
    Staffing problems exacerbated the control weaknesses at depots that had
    completed the public-private competition (OMB Circular A-76). At the time of
    this audit, operations at six depots were awarded to private contractors and
    operations for six depots were awarded to a workforce of Federal Government
    employees. The contracts for depot operations were generally awarded for 3 base
    years with 2 additional option years. The public-private competition has led to a
    very unstable workforce at the depots.

    Depots completing the OMB Circular A-76 requirements that have experienced
    inventory accuracy problems have developed detailed corrective actions plans for
    DDC oversight. In the more recent contracts, DDC has inserted a clause to
    penalize contractors that don’t meet inventory accuracy goals. A methodology
    has not been established to penalize the Government-operated depots.

    Contractor-Operated Depots. The option years were not exercised on the initial
    contracts at four of six contractor-operated depots, and the resolicitations were all
    awarded to new contractors resulting in an unstable workforce (See Table 3).



                                          9
                  Table 3. Depots Operated by Contractors
        Depot                            Current Status
   Barstow           Initial contractor won resolicitation
   Hill              Initial contractor awarded option years
   Warner Robins     Option years not awarded. New contractor in place
   Cherry Point      Option years not awarded. New contractor in place
   Jacksonville      Option years not awarded. New contractor in place
   San Diego         Option years not awarded. New contractor in place


Contractor-operated depots have failed to consistently achieve DoD inventory
record accuracy goals. Specifically, five of the six contractor-operated depots
failed to meet the goals established for all four categories of the second quarter
FY 2006 record accuracy statistical sample plan. For example, the operations for
the defense depot in Warner Robins, Georgia, were awarded to a contractor and
the first performance period began in September 2000. The option years were not
exercised and the resolicitation was awarded to another contractor. The new
performance period began in December 2004. In January 2006 there were
1,663 open inventory adjustment vouchers that were more than 45 days old, and
control reviews performed in February 2006 identified numerous deficiencies. In
addition, the depot did not achieve the goals established for three of the four
categories of the second quarter FY 2006 record accuracy sample plan.

DLA is in the process of transforming existing logistics processes by creating four
support regions within the Continental United States. Each will have one
“strategic distribution platform.” The Warner Robins depot is scheduled to
become one of DLA’s four strategic distribution platforms. The inventory-related
performance issues identified at the Warner Robins depot create concerns
regarding its ability to successfully operate as a strategic distribution platform
unless significant improvements are made. The Warner Robins depot has
developed a detailed corrective action plan. However, DLA must provide
sufficient oversight to ensure successful implementation of corrective actions.
Government-Operated Depots. The option years were not exercised at one
Government-operated depot and are to be resolicited (See Table 4).

             Table 4. Depots Operated by a Federal Workforce
        Depot                            Current Status
   Columbus          Initial Government operation in place
   Albany            Initial Government operation in place
   Corpus Christi    Initial Government operation in place
   Puget Sound       Initial Government operation in place
   Tobyhanna         Initial Government operation in place
   Richmond          Option years not awarded. Resoliciting.



                                    10
     Government-operated depots have also failed to consistently achieve DoD
     inventory record accuracy goals. Specifically, three of the six Government-
     operated depots failed to meet the goals established for all 4 categories of the
     second quarter FY 2006 record accuracy statistical sample plan.

     For example, the operations for the Corpus Christi, Texas, depot were awarded to
     a workforce of Federal employees and June 1, 2005, was the start of the initial
     performance period. Staff responsible for inventories and related research were
     subsequently reduced from 17 to 3. Control reviews performed in September
     2005 identified numerous deficiencies, and in January 2006 there were 558 open
     inventory adjustment vouchers that had not been completed within the required
     45 days. In addition, the depot did not achieve any of the goals established for the
     four categories of the second quarter FY 2006 record accuracy sample plan.


Impact of Internal Control Deficiencies
     The control weaknesses impact the overall integrity of the DLA perpetual
     inventory records and have contributed to inventory record accuracy rates that
     consistently fall short of DoD performance goals. Lack of accurate inventory
     records encumbers DoD managers who rely on the perpetual inventory records for
     information they need to make purchase and other important inventory
     management decisions. The combined weighted average record accuracy sample
     results for all depots from the fourth quarter FY 2000 through the second quarter
     FY 2006 are provided in Table 5.

                Table 5. Combined Record Accuracy Sample Results
                    4th Quarter FY 2000 - 2nd Quarter FY 2006
                            Sample Category* (Accuracy Percent Goal)
               FY - Quarter A (99%) B (95%) C (95%) D (95%)
              2000 - 4th             96            91            91               92
              2001 - 2nd             97            92            92               94
              2001 - 4th             95            92            89               93
              2002 - 2nd             96            91            91               94
              2002 - 4th             96            91            94               93
              2003 - 2nd             96            91            92               91
              2003 - 4th             97            91            94               92
              2004 - 2nd             96            91            95               92
              2004 - 4th             96            91            94               94
              2005 - 2nd             97            93            93               94
              2005 - 4th             97            93            93               96
              2006 - 2nd             97            95            94               96
                *See Table 1 for detailed descriptions of the sample categories




                                              11
Other Matters of Interest
     Analysis of the FY 2005 inventory valuation sample plan results identified errors
     in the mechanics of the sample plan as well as a high error rate. In circumstances
     where activities use statistical sampling, generally accepted auditing procedures
     require that auditors must be satisfied that the sampling plan is reasonable and
     statistically valid, that it has been properly applied, and that its results are
     reasonable.

     The first error identified with the statistical mechanics of the sample plan
     involved the methodology used to calculate the error bounds for net inventory
     dollar misstatement. Specifically, the DLA sample plan methodology uses a
     “t-value” in the error bound calculation, which is dependent on the number of
     sample sites. DLA incorrectly used a t-value of 2.09 when a t-value of 2.26
     should have been used. For the 2004 DLA sample plan, a total of 20 sample sites
     were selected and the appropriate t-value was 2.09. However, DLA reduced the
     sample size to 10 for the 2005 sample plan without adjusting the t-value
     accordingly to 2.26.

     The second error involved an incorrect cell reference in the sample projections of
     the sample results for the Corpus Christi depot. Specifically, the average
     misstatement for strata 1 was incorrectly referenced to a cell containing the results
     of an individual item adjustment for $2,911. The cell for the average
     misstatement for strata 1 should have been referenced to the average adjustments
     for strata 1 which contained a value of $137.

     The two errors impacted the sample projections but did not result in a material
     variance. The estimated inventory value decreased from $11,521,296,003 to
     $11,482,730,958 and the error bound increased from $84,632,442 to
     $100,220,788. The inventory estimate range (the estimated inventory value plus
     and minus the error bound) changed from $11,436,663,566 (lower bound) and
     $11,605,928,449 (upper bound) to $11,382,510,171 and $11,582,951,746,
     respectively. However, the revised range still fell within the overall materiality
     range of $11,267,342,337 and $11,845,154,765.

     Analysis of the FY 2005 DLA inventory valuation statistical sampling plan result
     also revealed a high error rate in regards to the number of physical inventory
     adjustments. The purpose of the inventory valuation statistical sampling plan is
     to assess the accuracy of the inventory value presented on the DLA financial
     statements. However, the analysis of the sample results identified a significant
     number of physical inventory adjustments that raised concerns from an internal
     control perspective. Statistical estimates of the misstatement percentage were
     calculated using the existing formulas and parameters in the sampling plan. The
     statistical estimate of the misstatement percentage (error rate) was calculated at
     approximately 12 percent, which exceeded the 5-percent maximum error rate
     established for DoD inventory record accuracy.




                                          12
Summary
    DLA has successfully implemented several initiatives to improve controls over
    inventory stored at its distribution depots, and inventory record accuracy rates
    have improved over the past 5 years. However, additional improvements are
    necessary to ensure that all DoD inventory accuracy goals are consistently
    achieved. Our control reviews identified weaknesses in several inventory-related
    processes including physical count procedures, DSS record accuracy, research of
    inventory discrepancies, and quality control checks. In addition, staffing
    problems exacerbated the control weaknesses at depots that had completed the
    public-private competition process required by OMB Circular A-76. While the
    existing policies and procedures provide sufficient guidance on maintaining
    inventory accuracy, DLA needs to provide oversight to ensure full compliance by
    contractor and Government personnel responsible for depot operations. This is
    especially important considering the unstable environment resulting from the
    implementation of OMB Circular A-76.


Recommendations and Management Comments
    We recommend that the Director, Defense Logistics Agency:

            1. Require that all contractor and Government personnel responsible
    for operating the distribution depots complete sufficient training and comply
    with inventory accuracy requirements for physical inventory counts, storage
    practices, discrepancies research, and quality checks. Adverse actions
    should be taken against supervisors who consistently fail to comply with
    established policy.

    Management Comments. The Director of Defense Logistics Agency Logistics
    Operations concurred with the recommendation. The Director stated that the
    Defense Distribution Center has developed a recurring training program that
    focuses on the processes that impact the accountable balance including receiving,
    warehousing, inventory control, and stock readiness. The Director also stated that
    the Defense Distribution Center Logistics Division is currently reorganizing and
    includes a newly established policy division that will have oversight of quality
    checks for distribution performance.

           2. Use the revised quality check process to enforce the 99-percent
    accuracy requirement for contractor-performed inventory counts, and apply
    the appropriate penalties for any shortfalls.

    Management Comments. The Director of Defense Logistics Agency Logistics
    Operations concurred with the recommendation. The Director stated that the
    Defense Distribution Center has taken steps to tighten control of the quality check
    process and will include positive and negative incentives in future contracts for
    inventory counts.




                                        13
       3. Establish a standardized methodology to appropriately penalize
contractor and Government operated depots that consistently fail to meet
inventory-related performance measures, particularly those depots that have
completed the public-private competition required by Office of Management
and Budget Circular A-76.

Management Comments. The Director of Defense Logistics Agency Logistics
Operations concurred with the recommendation. The Director stated that the
Defense Distribution Center Contracting Office is working to enhance future
contracts to include positive and negative incentives as well as an award fee for
meeting inventory integrity performance. The Director also stated that Defense
Distribution Center Contracting and Operations Directorates will monitor the
performance of depots that completed the public-private competition required by
Office of Management and Budget Circular A-76 and that failure to meet
acceptable performance levels will impact a depot’s standing as a high performing
activity when it comes to qualifying for contract option years.

       4. Establish a process for an independent review of the inventory
valuation statistical sampling plan results to ensure that the proper values
and spreadsheet references are used in the statistical calculations.

Management Comments. The Director of Defense Logistics Agency Logistics
Operations concurred with the recommendation. The Director stated that the
Defense Logistics Agency has coordinated with the Department of Defense
Inspector General to conduct an independent review of the inventory valuation
sampling plan results on an annual basis.




                                   14
Appendix A. Scope and Methodology
   We performed this audit from August 2005 through August 2006 in accordance
   with generally accepted government auditing standards. The audit was performed
   at DLA headquarters, DDC, and the 17 distribution depots listed in Table A.

                       Table A. Distribution Depots Visited
            Defense Distribution Depot            Month(s) Visited
           San Joaquin, California               September 2005
           Susquehanna, Pennsylvania             September 2005
           Corpus Christi, Texas                 September 2005
           Oklahoma City, Oklahoma         September 2005 & March 2006
           Barstow, California                    February 2006
           Anniston, Alabama                      February 2006
           Red River, Texas                       February 2006
           Norfolk, Virginia                      February 2006
           Warner Robins, Georgia                 February 2006
           Albany, Georgia                        February 2006
           Cherry Point, North Carolina           February 2006
           Hill, Utah                             February 2006
           Jacksonville, Florida                  February 2006
           Tobyhanna, Pennsylvania                February 2006
           San Diego, California                  February 2006
           Germersheim, Germany                   February 2006
           Yokosuka, Japan                         March 2006


   We evaluated the physical inventory control program and related inventory
   sampling plans. The control reviews at the distribution depots involved
   observations of 1,634 physical inventories performed by depot personnel during
   execution of the FY 2005 inventory valuation statistical sample plan and the
   second quarter FY 2006 record accuracy sample plan. The control reviews also
   involved 403 auditor recounts of items included in the second quarter FY 2006
   record accuracy sample plan that had been recently inventoried by depot
   personnel. In addition, we evaluated the depot quality checks over the physical
   inventory counts performed by Government and contractor personnel.

   A limited test of record accuracy controls was also performed to determine if
   stock information for selected warehouse locations was properly recorded in DSS.
   During the inventories, we randomly selected 1,058 nearby locations and
   determined whether the stock information was properly recorded in DSS. In
   addition, a judgmental sample of 73 completed inventory adjustment vouchers
   was analyzed as part of the control reviews performed in February and March
   2006. The population of completed vouchers consisted of those that existed in the
   October 2005 population that had been completed and did not exist in the January


                                      15
    2006 population that DDC provided. Our scope was limited in that we did not
    evaluate the mechanics of the DoD Record Accuracy Inventory Sample Plan.

    Use of Computer-Processed Data. DLA used computer-processed data from
    DSS to select the items for the statistical sampling plans it used to measure dollar
    value and supply record accuracy. We did not test the general and application
    controls in DSS and did not make any conclusions about the reliability of the
    data. We performed other tests to determine the reliability of the data.
    Specifically, we performed physical inventory observations, auditor recounts, and
    floor to record tests to determine the accuracy of the DSS inventory records.

    Use of Technical Assistance. Inspector General, DoD, Quantitative Methods
    Division personnel provided assistance in evaluating the FY 2005 DLA inventory
    valuation statistical sampling plan. During the evaluation, a significant number of
    errors were identified that raised concerns from an internal control perspective.
    Statistical estimates of the misstatement percentage were calculated using the
    formulas and parameters in the FY 2005 DLA inventory valuation statistical
    sampling plan. The statistical estimate of misstatement percentage was 11.83
    percent with an error bound of 3.56 percent. Therefore, the estimated
    misstatement range is 8.27 percent (lower bound) to 15.39 percent (upper bound).

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Supply Chain Management (formerly Inventory
    Management) high-risk area.


Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                         16
Appendix B. November 2005 Interim Results
Memorandum and DLA Response




                     17
18
19
20
21
22
23
24
Appendix C. March 2006 Interim Results
Memorandum and DLA Response




                     25
26
27
28
29
30
31
32
33
34
35
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Security Agency
Director, Defense Systems Management College

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          36
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        37
Defense Logistics Agency Comments




                     39
40
41
42
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
James C. Darrough
Brian L. Henry
Brian M. Stumpo
Bethany L. Hartman
Lusk F. Penn
Catherine Bird
